Case: 20-2750

Filed: 07/27/2021

Document: 27

Pages: 1

Tlnttei) States (Huuri of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
July 27, 2021
Before
DIANE S. SYKES, Chief Judge
DAVID F. HAMILTON, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 20-2750
ANTONIO MAYS,
Plaintiff-Appellant,

Appeal from the United States District
Court for the Eastern District of
Wisconsin.

v.
No. 18-CV-1769
TRACY JOHNSON,
Defendant-Appellee

William E. Duffin,
Magistrate Judge

ORDER
On consideration of the petition for rehearing and petition for rehearing en banc,
no judge in regular active service has requested a vote on the motion for rehearing en
banc1 and the judges on the original panel have voted to deny rehearing. It is, therefore,
ORDERED that the petition for rehearing and petition for rehearing en banc is
DENIED.

i

Circuit Judge Candace Jackson-Akiwumi did not participate in the consideration of this petition
for rehearing en banc.

Cas§TZU:Z750‘

uocument: 24
hiiea: utirzsizozi
Pagfes: 4
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

Unthfr fflsfteB Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted June 18, 202T
Decided June 25, 2021
Before
DIANE S. SYKES, Chief Judge
DAVID F. HAMILTON, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 20-2750
ANTONIO MAYS,
Plaintiff-Appellant,

v.
TRACY JOHNSON,
Defendant-Appellee.

Appeal from the United States District
Court for the Eastern District of
Wisconsin.
No. 18-CV-1769
William E. Duffin,
Magistrate Judge.
ORDER

After his probation and parole agent sought to revoke his extended supervision
and have him taken into custody, Antonio Mays sued her under 42 U.S.C. § 1983 for
lacking any legitimate reason to take such steps. The district court concluded that the
officer was entitled to absolute immunity and entered summary judgment in her favor.
We affirm.
* We have agreed to decide this case without oral argument because the briefs
and record adequately present the facts and legal arguments, and oral argument would
not significantly aid the court. See Fed. R. App. P. 34(a)(2)(C).

Case: 20-2750

Document: 24

Filed: 06/25/2021

Pages: 4

In March 2018, while on community supervision (following a prison term for
armed robbery), Mays was implicated in a double homicide. His probation and parole
agent, Tracy Johnson, initiated proceedings to revoke his supervision and then had him
detained on a "revocation hold/' She alleged four violations of his release conditions—
two related to the homicides, one for possessing a gun, and one for lying to police. After
a hearing, an administrative law judge with the State of Wisconsin Division of Hearings
and Appeals declined to revoke Mays's supervision. The ALJ found the evidence
sufficient to prove only that Mays had lied to the police—a violation that did not on its
own justify revocation. That decision was upheld on appeal.
Although Mays's revocation hold was lifted in late July, he remained in custody
another two months while criminal charges related to the double homicide were
pending. When he posted bail and was released, a different probation and parole agent
was temporarily assigned to supervise him in the community.
Meanwhile, Johnson had received lab results showing that Mays's DNA was
found on two firearms linked to the homicides. Based on this new evidence, Johnson
moved successfully to reopen revocation proceedings. On October 8, Johnson issued a
warrant (an "apprehension request" under Wisconsin's terminology) for Mays's arrest,
and he was taken back into custody. Eleven days later, Mays was convicted by a jury in
the double homicide trial. Johnson withdrew the revocation petition and filed a new
one based on the convictions. After a second hearing, Mays's supervision was
eventually revoked, and he received a 10-year sentence with credit for the 11 days
served after returning to custody.
Mays brought this suit against Johnson, asserting that she subjected him to
additional incarceration without justification—in violation of the Eighth Amendment—
when she had him arrested based on the charges he had "beaten" in the first revocation
hearing. Because Johnson did not allege any new violations since his first revocation
hearing, Mays argued that she lacked a legitimate basis to revoke his supervision and
have him arrested. In Mays's view, Johnson's persistence in pursuing revocation, even
after a new probation and parole agent had taken over his day-to-day supervision,
amounted to harassment and exposed the illegitimacy of her actions. He sought money
damages for the 11 days spent in custody before his conviction.
The district court entered summary judgment for Johnson on immunity grounds.
The court concluded that Johnson, in recommending the revocation of Mays's

Case: 20-2750

Document: 24

Filed: 06/25/2021

Pages: 4

supervision and his incarceration, was performing a ''quasi-judicial function" and
therefore protected by absolute immunity.
On appeal, Mays maintains that Johnson effectively lost any immunity after
another agent was assigned to oversee his day-to-day supervision. He also continues to
assert that she caused him to be arrested for violations that she knew he previously had
"won on."
We apply a "functional approach" to decide whether the actions of a government
official warrant absolute immunity, looking to "the nature of the function performed,
not the identity of the actor who performed it." Buckley v. Fitzsimmons, 509 U.S. 259, 269
(1993) (internal citation omitted); Jones v. Cummings, No. 20-1898, 2021 WL 2134298, at *4
(7th Cir. May 26, 2021). Absolute immunity shields, for example, a prosecutor's conduct
as an advocate that is "intimately associated with the judicial phase of the criminal
process," such as initiating a prosecution and presenting the state's case. Imbler v.
Pachtman, 424 U.S. 409, 430-31 (1976). But absolute immunity does not extend to a
parole officer who investigates a charge and then prepares a violation report for a
revocation; such conduct lacks a "prosecutorial or judicial analog." Wilson v. Kelkhoff,
86 F.3d 1438,1446 (7th Cir. 1996); see also Dawson v. Newman, 419 F.3d 656, 662 (7th Cir.
2005) (declining to extend absolute immunity to parole officers for performing their
day-to-day duties in the supervision of a parolee).
With regard to Johnson's actions to initiate revocation proceedings, she is
entitled to absolute immunity. Her acts are closely associated with the quasi-judicial
phase of the criminal process. See Tobey v. Chibucos, 890 F.3d 634, 650 (7th Cir. 2018)
(probation officer engaged in quasi-judicial function by filing memoranda requesting
that state's attorney begin proceedings to revoke probation). Under the applicable
Wisconsin regulations, see WlS. Admin. Code DOC § 331.03(2), parole agents have the
discretion to decide how they will proceed after investigating an alleged parole
violation; they might recommend revocation, resolve the matter in an informal
counseling session, or come up with another solution altogether. The record reflects that
Johnson exercised that discretion when she sought revocation of Mays's supervision
based on the lab's DNA results. "[F]iling requests for revocation are not violations of
section 1983; they are [part of] the job description for the often thankless job of
probation officer." Tobey, 890 F.3d at 650.
Johnson is likewise entitled to absolute immunity for her decision to issue an
apprehension request to have Mays taken into custody. Parole officers are absolutely

Case: 20-2750

Document: 24

Filed: 06/25/2021

Pages: 4

immune, we have reiterated, for the quasi-judicial activity of signing an arrest warrant,
provided they were not involved in preparing the evidence that formed the basis of the
warrant. See id. at 650; Dawson, 419 F.3d at 662; Copus v. City of Edgerton, 151 F.3d 646,
649 (7th Cir. 1998); Walrath v. United States, 35 F.3d 277, 282 (7th Cir. 1994). As we have
explained, a parole officer's issuing of an arrest warrant for a parole violation has
judicial characteristics: "[I]t involves the exercise of discretion in applying the law to the
facts of a particular case, poses a heightened risk of vexatious litigation, and is 'open to
correction through ordinary mechanisms of review.'" Walrath, 35 F.3d at 282. Contra
Washington v. Rivera, 939 F .3d 1239,1243-44 (11th Cir. 2019) (collecting cases and
holding that parole officers' decisions to issue warrants were entitled to only qualified
immunity). Johnson's act of signing the apprehension request was an exercise of
discretion based on the DNA report she obtained from the lab, and as such is shielded
by absolute immunity.
Lastly, to the extent Mays believes that Johnson initiated revocation proceedings
and arranged his arrest to harass him, her motives are irrelevant if—as we have
concluded — she is entitled to absolute immunity. See Tobey, 890 F.3d at 649. But,
regardless we note that even if Johnson were not entitled to immunity, Mays's claims
would fail on the merits. He has no basis for a § 1983 claim for the 11 days he spent in
custody before his conviction because that time was credited to a lawful sentence.
See Ewell v. Toney, 853 F.3d 911, 917 (7th Cir. 2017).
AFFIRMED

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
ANTONIO DARNELL MAYS,
Plaintiff,
v.

Case No. 18-CV-1769

TRACY JOHNSON,
Defendant.

ORDER

Pro se plaintiff Antonio Mays filed this lawsuit under 42 U.S.C. § 1983. United
States District Judge Pamela Pepper screened the amended complaint and allowed
Mays to proceed with a claim that defendant Tracy Johnson revoked his extended
supervision twice based on the same rule violations. The parties subsequently
consented to the jurisdiction of a magistrate judge. The parties have filed cross­
motions for summary judgment which have been fully briefed and are ready for
resolution.
Undisputed Facts
The relevant facts are undisputed. {See ECF Nos. 26, 31, 33.) Mays is a
Wisconsin state prisoner who has been in and out of custody. (ECF No. 26, tt 1. 3-)
In 2003 Mays was convicted of armed robbery with use of force and sentenced to an
initial term of ten years in prison, to be followed by ten years of extended supervision.
(ECF No. 31,1 4.) On January 3, 2012, Mays was released to community supervision.

Case 2:18-cv-01769-WED Filed 08/20/20 Page 1 of 9 Document 38

(Id., f 5.) Johnson was Mays’s probation and parole agent between July 2013 and
September 2018. (ECF No. 31, tt 1-3; ECF No. 26,t 5.)
As a condition of his release Mays signed Rules of Supervision in which he
agreed to “[a]void all conduct which is in violation of federal or state statute,
municipal or county ordinances, tribal law or which is not in the best interest of the
public welfare or [his] rehabilitation. (ECF No. 31, t 6.) Mays also agreed to “[pjrovide
true, accurate, and complete information in response to inquiries by DOC staff’;
“[i]nform [his] agent of [his] whereabouts and activities as he/she directs”; and not
possess, own, or carry a firearm without his agent’s permission. (Id., 1 7.)
On or around March 15, 2018, there was a double homicide at a house in
Milwaukee. (ECF No. 31, ft 8-9.) Witnesses at the scene reported that Brandon Jones
(Mays’s cousin) was playing dice at the house when a heavy-set black man wearing a
jean jacket forced his way into the house and began shooting. (Id., tt 10-13.) Someone
at the house shot back and wounded the shooter. (Id., If 14.) Investigators collected
evidence at the crime scene, including DNA samples, three casings from a .45 caliber
firearm, and one casing from a 9mm firearm. (Id., f 11.)
Police officers talked to Jones following the shooting. (ECF No. 31, 1ft 15-16.)
Jones said that he had called Mays to the house after losing money in a dice game.
(Id., t 15.) Jones saw Mays enter the house. (Id.) Gunshots rang out. (Id.) Jones then
saw Mays running away from the house with two guns and gunshot wounds. (Id.)
Jones told officers that he drove Mays to the hospital and Mays disposed of the
weapons on the way there. (Id., t 16.)
2

Case 2:18-cv-01769-WED Filed 08/20/20 Page 2 of 9 Document 38

Mays was admitted to a hospital in Milwaukee with gunshot wounds to his
head and back. (ECF No. 31, f 8.) Mays matched the description of the shooter and
police officers found a jean jacket in his hospital room. {Id., t 10.) Mays denied any
involvement in the housing shooting. {Id., If 17.) He told police officers that he was a
victim of an attempted robbery at a nearby gas station. {Id.) Officers found no
evidence of a shooting at a gas station that day. {Id., If 18.)
Later on March 15, 2018, Johnson received a phone call from the Milwaukee
County Police Department notifying her that Mays had been admitted to the hospital
with gunshot wounds. (ECF No. 32, If 11.) She interviewed Mays and asked him to
provide a written statement. {Id., If 19.) Mays admitted that he was at the location of
the shooting with Jones. {Id., t 20.) He said that he initially told police he was not
involved in the incident because he didn’t want Johnson to find out he was engaging
in negative behavior. {Id., If 21.) Mays explained that he was sitting in a car outside
of the house waiting for Jones. {Id., 1 22.) Mays got tired of waiting and went inside
to get Jones. {Id.) As Mays and Jones were walking out of the house together, Mays
was shot. {Id.) Mays denied having (or shooting) a firearm. {Id., t 23.)
Several days later, on March 26, 2018, the police executed a search warrant at
Mays’s prior residence. (ECF No. 31, t 24.) They recovered seven firearms, including
a .45 caliber firearm and a 9mm firearm. {Id., f 25.) Testing showed that the casings
found at the crime scene matched the firearms found in the residence. {Id., If 26.)
Based on this evidence, Johnson decided to initiate revocation proceedings.
(ECF No. 31, 1ft 27, 30.) She identified four Rules of Supervision that Mays violated
3

Case 2:18-cv-01769-WED Filed 08/20/20 Page 3 of 9 Document 38

and took Mays into custody on a “revocation hold.” (Id.) Two days later, on March 28,
2018, the Milwaukee County District Attorney charged Mays criminally with two
counts of first-degree reckless homicide and two counts of felon in possession of a
firearm. (Id.,

28-29.) The criminal charges were amended later to felony murder

and first-degree reckless homicide and two counts of felon in possession of a firearm.
(Id., t 29.)
On June 11, 2018, the Division of Hearings and Appeals held a hearing on the
revocation request. (ECF No. 31, f 31.) Following the hearing, an administrative law
judge (ALJ) concluded that the Department of Corrections proved rule violation
number three (providing a false statement to police) but could not prove rule violation
numbers one, two, and four (having and shooting a firearm at the crime scene). (Id.,
1 32.) The ALJ denied the request to revoke Mays’s extended supervision because
providing a false statement to police did not alone warrant revocation. (Id.)
Johnson appealed the decision, which was sustained on July 27, 2018. (ECF
No. 31, tH 33-34.) Johnson then cancelled the “revocation hold” effective July 31,
2018. (Id., U 35.) Mays nevertheless remained in custody because he still had criminal
charges pending against him for the double homicide. (Id., U 36.)
On August 16, 2019, Johnson received DNA results from the State Crime Lab
tying Mays to the double homicide. (ECF No. 31, 1) 38.) DNA found on two of the
weapons used in the double homicide matched Mays’s profile. (Id.) Based on this new
evidence, Johnson filed a motion to reopen Mays’s revocation proceeding on August
29, 2018. (Id., K 39.) While the motion to reopen was pending, Mays posted bail on
4

Case 2:18-cv-01769-WED Filed 08/20/20 Page 4 of 9 Document 38

the double homicide charges and was released from custody on September 19, 2018.
(Id., 1(37.) Mays then “temporarily” received a new probation and parole agent, Bryan
Balde. (ECF No. 33, f 5.)
On October 3, 2018, the Division of Hearings and Appeals granted Johnson’s
motion to reopen Mays’s revocation proceeding. (ECF No. 31, If 40.) The case went
back to the original ALJ for further proceedings. (Id.) Johnson and her superiors
decided to take Mays back into custody pending the new revocation proceeding. (Id.,
f 41.) Mays was returned to custody on October 8, 2018. (Id., Tf 42.) About 11 days
later, on October 19, 2018, a jury convicted Mays of all counts in his criminal case.
(Id., If 44.) Johnson then requested to withdraw the motion to reopen revocation
proceedings based on the DNA evidence in order to initiate a new revocation
• proceeding based on the jury conviction. (Id., ^f 46.) The Division granted the request.
(Id., If 48.)
On October 29, 2018, Johnson filed a new revocation proceeding identifying the
same four rule violations but now with the homicide conviction. (ECF No. 31,

50-

52.) An ALJ found that Mays violated rules one, two, and four. (Id., If 54.) The ALJ
dismissed rule violation three because it had been fully litigated in the original
revocation proceeding. (Id.)
The ALJ revoked Mays’s extended supervision and remanded him to state
prison for 10 years and 5 days with custody credit for the time he spent in jail during
the revocation proceedings. (ECF No. 31, If 55.) Mays appealed the decision,
challenging only the length of confinement. (Id. % 56.) The Administrator affirmed on
5

Case 2:18-cv-01769-WED Filed 08/20/20 Page 5 of 9 Document 38

February 5, 2019. {Id., f 57.) The Administrator signed a Revocation Order and
Warrant remanding Mays to state prison, giving Mays full credit for the time spent
in jail from the date of his re-arrest on October 8, 2018, until his arrival in prison on
February 13, 2019. {Id., UK 58-61.)
Summary Judgment Standard
Summary judgment is required where “there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a); see also Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247-48 (1986); Celotex
Corp. v. Catrett, All U.S. 317, 323-24 (1986); Ames v. Home Depot U.S.A., Inc., 629
F.3d 665, 668 (7th Cir. 2011). When considering a motion for summary judgment, the
court takes evidence in the light most favorable to the non-moving party and must
grant the motion if no reasonable juror could find for that party. Anderson v. Liberty
Lobby, Inc., All U.S. 242, 248, 255 (1986).
Analysis
Mays seeks monetary damages for the 11 days he served in jail prior to his
criminal conviction in the double homicide (between October 8, 2018 and October 19,
2018). Mays says he was “out on bail” for the double homicide and Johnson should
have allowed him to remain out of custody until his criminal trial. Instead, Johnson
took Mays back into custody on October 8, 2018, following the Division’s decision to
grant her motion to reopen his revocation proceeding.
“Probation and parole officials are entitled to absolute immunity ‘for their
activities that are analogous to those performed by judges.”’ Tobey v. Chibucos, 890
o

Case 2:18-cv-01769-WED Filed 08/20/20 Page 6 of 9 Document 38

F.3d 634, 650 (7th Cir. 2018) (quoting Dawson v. Newman, 419 F.3d 656, 662 (7th
Cir. 2005)); see also Smith v. Gomez, 550 F.3d 613, 619 (7th Cir. 2008). While quasi­
judicial immunity does not extend to the day-to-day duties in the supervision of a
parolee or investigating and gathering evidence for revocation, parole officials are
immune from any federal claims for “acts associated with the decision to grant,
revoke, or deny parole.” Dawson, 419 F.3d at 662. The Court of Appeals for the
Seventh Circuit has extended that immunity “to those activities that are part and
parcel of the decision process” to deny, grant, or revoke parole. Thompson v. Duke,
882 F.2d 1180, 1183 n.3 (7th Cir. 1989).
While Johnson was involved in supervising and investigating Mays’s extended
supervision violations, Mays’s complaint with Johnson stems from her decision to
recommend revoking his extended supervision and incarcerating him. In conducting
the latter two tasks, Johnson was engaged in a quasi-judicial function for which she
is protected by absolute immunity. See e.g. Weso u. Thomson, No. 19-C-404, 2020 WL
3509612, at *3 (E.D. Wis. June 29, 2020) (dismissing a claim at summary judgment
based on absolute immunity because the defendant “did not simply investigate [the
plaintiffs] offending conduct and submit report on his findings; he recommended that
[the plaintiffs] extended supervision be revoked and that he be incarcerated”); see
also Griffin v. Laurie Bondar, Cathy Coulson, Denise Tuttle, No. 20-CV-380-JPS, 2020
WL 3546814, at *3 (E.D. Wis. June 30, 2020) (dismissing a claim at screening because
two parole agents’ decision to recommend revoking extended supervision was
“sufficiently adjudicative in nature” to by protected by prosecutorial immunity.).
t

(

Case 2:18-cv-01769-WED Filed 08/20/20 Page 7 of 9 Document 38

Accordingly, the court will grant the defendant’s motion for summary
judgment, deny Mays’s motion for summary judgment, and dismiss this case. See 28
U.S.C. 1915(e)(2)(B)(iii)(“Notwithstanding any filing fee, or any portion thereof, that
may have been paid, the court shall dismiss the case at any time if, the court
determines that...the action...seeks monetary relief against a defendant who is
immune from such relief”)
IT IS THEREFORE ORDERED that Mays’s motion for summary judgment
(ECF No. 23) is DENIED; the defendant’s motion for summary judgment (ECF No.
29) is GRANTED and this case is DISMISSED. The Clerk of Court will enter
judgment accordingly.
This order and the judgment to follow are final. A dissatisfied party may appeal
this court’s decision to the Court of Appeals for the Seventh Circuit by filing in this
court a notice of appeal within 30 days of the entry of judgment. See Federal Rule of
Appellate Procedure 3, 4. This court may extend this deadline if a party timely
requests an extension and shows good cause or excusable neglect for not being able
to meet the 30-day deadline. See Federal Rule of Appellate Procedure 4(a)(5)(A).
Under certain circumstances a party may ask this court to alter or amend its
judgment under Federal Rule of Civil Procedure 59(e) or ask for relief from judgment
under Federal Rule of Civil Procedure 60(b). Any motion under Federal Rule of Civil
Procedure 59(e) must be filed within 28 days of the entry of judgment. The court
cannot extend this deadline. See Federal Rule of Civil Procedure 6(b)(2). Any motion
under Federal Rule of Civil Procedure 60(b) must be filed within a reasonable time,
8

Case 2:18-cv-01769-WED Filed 08/20/20 Page 8 of 9 Document 38

generally no more than one year after the entry of the judgment. The court cannot
extend this deadline. See Federal Rule of Civil Procedure 6(b)(2).
A party is expected to closely review all applicable rules and determine, what,
if any, further action is appropriate in a case.
Dated at Milwaukee, Wisconsin this 20th day of August, 2020.

WILLIAM E. DUFFIN
U.S. Magistrate Judge

9

Case 2:18-cv-01769-WED Filed 08/20/20 Page 9 of 9 Document 38

Additional material
from this filing is
available in the
Clerk's Office.

